                    Department of Justice
                       United States Attorney Stephen R. Wigginton
                                Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                       CONTACT: James L. Porter
FRIDAY, MARCH 9, 2012                                       PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/



                            TROY MAN SENTENCED FOR
                      FRAUD AND AGGRAVATED IDENTITY THEFT

       Chad Vincent Iacona, 44, of Troy, IL, was sentenced in United States District Court, East St.
Louis, on March 8, 2012, for one count of Fraud in Connection with an Access Device and one count
of Aggravated Identity Theft, the United States Attorney for the Southern District of Illinois, Stephen
R. Wigginton, announced today.
       Iacona was found guilty on December 2, 2011, by a jury’s verdict following a four day trial.
Iacona received a sentence of 3 years and 3 months in prison and a term of 3 years’ supervised
release. He was ordered to pay restitution of more than $75,000 and a special assessment of $200.
Iacona, who purchased D&L Investigations, Inc., on May 1, 2005, used the name and social security
number of the former owner to apply for, obtain, and use, without her authorization, revolving credit
accounts, leaving an unpaid balance of more than $75,000.
       The investigation was conducted by the United States Postal Inspection Service with
assistance from the Social Security Administration Office of the Inspector General. The case was
prosecuted by Assistant United States Attorney Michael J. Quinley and Special Assistant United
States Attorney Katherine L. Lewis.




                                                 ###
